HHS/OIG-Audit--"Follow-up Review of Medicaid Reimbursement to Nursing Facilities - Ohio Department of Human Services, (A-05-97-00028)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of Medicaid Reimbursement to Nursing Facilities - Ohio
Department of Human Services," (A-05-97-00028)
February 9, 1998
Complete Text of Report is available in PDF format
(467 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
A prior audit had disclosed, based on a statistical sample, that Ohio had made
overpayments to hospitals and long term care facilities totaling $29.3 million
(Federal share $17.6 million) during the 4-year period ending December 1992.
A financial adjustment was recommended. In response the State contracted with
Deloitte and Touche Consulting Group to conduct a review of the overpayment
conditions we identified and initiate a retroactive recovery process. Deloitte
and Touche's review covered the period January 1, 1989 through May 31, 1996
(a longer period than was covered by our prior audit. The objective of our follow-up
audit was to determine the reasonableness of the methodology used by Deloitte
and Touche in their review. We found Deloitte and Touche's methodology to identify
Medicaid overpayments to be reasonable. We concur with Deloitte and Touche's
overpayment findings totaling $34.0 million (Federal share $20.5 million) and
recommend the State make a financial adjustment for this amount. State agency
officials concurred with our recommendation.